No. 19In THE

Supreme (tart of tt|E IRnitEfr States
ARRIS INTERNATIONAL LIMITED,
Petitioner,
v.
CHANBOND, LLC
AND
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
Donald J. English
Counsel of Record
Patrick D. McPherson
Matthew C. Gaudet
Diana M. Sangalli
Duane Morris LLP
505 9th Street, NW, Suite 1000
Washington, DC 20004
(202) 776-5228
djenglish@duanemorris.com
Counsel for Petitioner
289921

%

QUESTIONS PRESENTED
1. Whether the Federal Circuit has appellate
jurisdiction to review a decision by the Patent Trial and
Appeal Board (“PTAB”) denying institution of an. inter
partes review based on the time-bar of 35 U.S.C. § 315(b).
2. Whether the inability of the Petitioner to appeal
the PTAB’s finding that the Petitioner is a “privy” of
a third party, thereby affecting a substantive right of
the Petitioner, is a denial of due process because of the
substantive estoppels arising from that finding in the
context of the AIA/ IPR statutory scheme.

II

PARTIES TO THE PROCEEDING BELOW
ARRIS International pie was the appellant below
and the petitioner before the Patent Trial and Appeal
Board. ARRIS International pic was renamed ARRIS
International Limited, the petitioner.
Respondent ChanBond LLC, was an appellee below
and a respondent before the PTAB.
Respondent Andrei Iancu, Under Secretary of
Commerce for Intellectual Property and Director of
The United States Patent and Trademark Office was an
intervenor in the Federal Circuit.
RULE 29.6 DISCLOSURE STATEMENT
CommScope Holding Company, Inc. is a publicly held
company that owns 10% or more of the stock of petitioner
ARRIS International Limited.
DIRECTLY RELATED PROCEEDINGS
ARRIS Int’l pic v. ChanBond, LLC, Nos. 18-2426,
-2427, -2428, -2429, -2430, U.S. Court of Appeals for the
Federal Circuit. Judgement entered Dec. 27, 2018.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING BELOW

ii

RULE 29.6 DISCLOSURE STATEMENT

11

DIRECTLY RELATED PROCEEDINGS

n

TABLE OF CONTENTS

m

TABLE OF APPENDICES

vi

TABLE OF CITED AUTHORITIES

vm

INTRODUCTION

1

OPINIONS BELOW

4

JURISDICTION

4

STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

7

A. The America Invents Act

9

B. The Patent Infringement Cases

11

C. The IPR Proceedings Before The PTAB

11

IV

Table of Contents
Page
D. The Federal Circuit Appeals

13

REASONS FOR GRANTING THE PETITION....... 14
I.

The Federal Circuit’s Decision that it Does
Not Have Jurisdiction to Review a PTAB
Decision Affecting the Substantive Rights
of a Petitioner - a Decision Unrelated to the
Director’s Discretion to Institute Review
- Leaves the Reviewability of the PTAB’s
Decisions in a State of Confusion....... .

16

A. The Federal Circuit Contravened Cuozzo,
Wi-Fi One and Arthrex....................

16

1. The en banc Court in Wi-Fi One,
Relying on Cuozzo, Held that
Time-Bar Determinations Under
§ 315(b) are Reviewable..............

17

2. Arthrex Held that 35 U.S.C.
§ 319 Does Not Provide Exclusive
Jurisdiction for Appeals from
PTAB Decisions..........................

22

3. The Federal Circuit’s Continued
Reliance On St. Jude To Artificially
Restrict Its Jurisdiction to
Review Certain PTAB Institution
Decisions Should Be Overruled
in view of Cuozzo, Wi-Fi One
and Arthrex..................................... .23

r

V

Table of Contents
Page
B. Even if the PTAB’s Decision to Deny
Institution is Committed to Agency
Discretion, the Decision is Available for
Review Under Weyerhaeuser..............
II. This Case is an Ideal Vehicle to Resolve the
Jurisdiction of the Federal Circuit to Review
PTAB Decisions Denying Institution Based on
the Time-bar of 35 U.S.C. § 315(b)...........
CONCLUSION

25

.28
.29

VI

TABLE OF APPENDICES
Page
APPENDIX A — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED
DECEMBER 27,2018 ...................... ............. .

la

APPENDIX B — REDACTED DECISION
OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE, CASE
IPR2018-00570, DATED JULY 20,2018....... .

5a

APPENDIX C — REDACTED DECISION
OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE, CASE IPR2018-00572,
DATED JULY 20,2018 ..................................

31a

APPENDIX D — REDACTED DECISION
OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE, CASE
IPR2018-00573, DATED JULY 20,2018........

56a

APPENDIX E — REDACTED DECISION
OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE, CASE
IPR2018-00574, DATED JULY 20,2018....... .

81a

APPENDIX F — REDACTED DECISION
OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE, CASE
IPR2018-00575, DATED JULY 20,2018 ....... 106a

i

Vll

Table ofAppendices
Page
APPENDIX G — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED APRIL 26,2019 ................................. 131a
APPENDIX H — PETITION FOR REHEARING
AND ADDENDUM OF THE UNITEDSTATES
COURT OF APPEALS FOR THE FEDERAL
CIRCUIT, FILED FEBRUARY 11,2019....... 133a

vm
TABLE OF CITED AUTHORITIES
Page
CASES
Abbott Lab. v. Gardner,
387 U.S. 136 (1967)..

.26

Arthrex, Inc., v. Smith & Nephew, Inc.,
880 F.3d 1345 (Fed. Cir. 2018)....... 13,14,22,23,25
B&B Hardware, Inc. v. Hargis Indus.,
135 S. Ct. 1293 (2015)......................
Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131 (2016).........
Dex Media, Inc., v.
Click-To-Call Techs., LP,
No. 18-916(2019)..........

14,21
passim

.3,28

Lincoln v. Vigil,
508 U.S. 182 (1993)

.27

MaxLinear, Inc. v. CF CRESPE LLC,
880 F.3d 1373 (Fed. Cir. 2018) ....

21

Oil States Energy Servs., LLC v.
Greene’s Energy Grp., LLC,
■ 138 S. Ct. 1365 (2018)............
SAS Inst. Inc. v. Iancu,
138 S. Ct. 1348 (2018)

9,10
10

IX

Cited Authorities
Page
St. Jude Med., Cardiology Div., Inc. v.
Volcano Corp.,
749 F.3d 1373 (Fed. Cir. 2014).......
Weyerhaeuser Co. v.
U.S. Fish & Wildlife Service,
139 S. Ct. 361 (2018).............
Wi-Fi One, LLC v. Broadcom Corp.,
878 F.3d 1364 (Fed. Cir. 2018)....

13,24,25

13,24,26,27
passim

STATUTES AND REGULATIONS

5 U.S.C. § 701

6

5 U.S.C. § 701(a)(1)

6,26

5 U.S.C. § 701(a)(2)

6,26,27

5 U.S.C. § 702

26

5 U.S.C. § 706

6

5 U.S.C. §§ 706(2)(A)-(D)
16 U.S.C. § 1533(b)(2)
28 U.S.C. § 1254(1)

1,18
26
4

28 U.S.C. § 1295

5,22,23

28 U.S.C. § 1295(a)(4)(A)

passim

X

Cited Authorities
Page

35 U.S.C. § 141(c)

10

35 U.S.C. § 311(a)

9

35 U.S.C. § 312

17

35 U.S.C. § 312(a)(3)

.9

35 U.S.C. § 313

9

35 U.S.C. § 314

4,18

35 U.S.C. § 314(a)

passim

35 U.S.C. § 314(d)

passim

35 U.S.C. § 315(b)

passim

35 U.S.C. § 315(e)

21

35 U.S.C. § 318(a)

10

35 U.S.C. § 319
37 C.F.R. § 42.4(a)

1, 5,10,22
9

OTHER AUTHORITIES
H.R. Rep. No. 112-98 (2011)

9

Pub. L. No. 112-29,125 Stat. 284 (2011)

7

"\

1
INTRODUCTION
The America Invents Act created “inter partes review”
(“IPR”), an agency procedure for challenging a patent
before the Patent Trial and Appeal Board (“PTAB”).
This Court first addressed the scope of reviewability
of institution decisions for IPRs in Cuozzo Speed
Technologies, LLC v. Lee, 136 S. Ct. 2131 (2016), based
on the appeal bar set forth in 35 U.S.C. § 314(d), which
states that “[t]he determination by the Director whether
to institute an inter partes review under this section shall
be final and nonappealable.” 35 U.S.C. § 314(d). In Cuozzo,
this Court held that the § 314(d) appeal bar applies to, and
thus precluded review of, the Patent Office’s institution
decisions made under 35 U.S.C. § 314(a), i.e., decisions
based on the underlying merits of the challenge to a
patent. Cuozzo, 136 S. Ct. at 2142. However, the Court
emphasized that the § 314(d) appeal bar applies only to
cases “where the grounds for attacking the decision to
institute inter partes review consist of questions that
are closely tied to the application and interpretation of
statutes related to the Patent Office’s decision to initiate
inter partes review,” and declined to “decide the precise
effect of § 314(d)” on appeals that implicate constitutional
questions or depend on less closely related statues. Id.
at 2141. In so holding, this Court expressly recognized
exceptions allowing review when “there is a due process
problem” or the PTAB “act[ed] outside of its statutory
limits,” noting that “[s]uch ‘shenanigans’ may properly be
reviewable” under 35 U.S.C. § 319 or the Administrative
Procedure Act. Id. at 2141-42 (citing 5 U.S.C. §§ 706(2)
(A)-(D)).

2

In the Wi-Fi One case, the Federal Circuit addressed
whether it had appellate jurisdiction to review a decision
by the PTAB that a petitioner was not time-barred by 35
U.S.C. § 315(b), which requires that a petitioner and its
privies must file a petition within one year of being sued on
the patent in district court. Wi-Fi One, LLC v. Broadcom
Corp., 878 F.3d 1364 (Fed. Cir. 2018) (en banc). Based on
the holding of Cuozzo, the en banc Federal Circuit held
that a PTAB decision under the § 315(b) time-bar was not
“closely related” to the PTAB decision whether to institute
review under § 314(a), and therefore the appeal bar set
forth in § 314(d) did not apply to a time-bar determination.
Id. at 1373.
The Federal Circuit addressed the same statutory
provision - the § 315(b) time-bar - in the instant case but
held that it did not have jurisdiction to hear an appeal
when the PTAB issues a ruling on the § 315(b) time-bar in
a denial of institution decision. Thus, the Federal Circuit’s
decision below artificially limits the reviewability of timebar decisions based on a procedural happenstance, even
though a time-bar decision can (as in this case) be based
on a privity finding that impacts a petitioning party’s
substantive rights beyond the PTAB proceeding. The
Federal Circuit’s decision has thus created an exception
to its en banc decision in Wi-Fi One that both defies the
underlying logic of the en banc decision and disregards
the directive in Cuozzo on the importance of permitting
review of agency decisions that violate due process.
Specifically, the Federal Circuit treats appeals
from institution decisions based on the time-bar of 35
U.S.C. § 315(b) differently depending on the procedural
happenstance of whether or not the appeal is made after
the issuance of a Final Written Decision. Even though

3

the statutory and constitutional bases for requiring
appellate review are exactly the same in either scenario,
the Federal Circuit has created an exception to the
“strong presumption in favor of judicial review” that is
ungrounded in statutory or case law. See Cuozzo, 136 S.
Ct. at 2140 (internal quotation marks omitted).
The scope and limits of the appeal bar of § 314(d),
specifically as it applies to the PTAB’s decisions of the
time-bar under § 315(b), is a continuing challenge for
the PTAB and the courts. The en banc Wi-Fi One ruling
addressed the reviewability of a § 315(b) ruling when
the PTAB institutes review, thereby protecting the due
process rights of the Patent Owner. The Federal Circuit
decision below introduces confusion by not acknowledging
that the decision by the PTAB holding ARRIS subject
to the time-bar based on a “privity” finding affects the
substantive rights of ARRIS that follows ARRIS outside
the confines of the PTAB proceeding. This outcome is in
sharp contrast to a PTAB decision not to institute an IPR
based on its discretionary evaluation of the underlying
merits of the patent challenge.
This Court already has recognized the importance of
the scope of the appeal bar under § 314(d) as it applies to
the time-bar under § 315(b) in its recent grant of a petition
for a writ of certiorari in Dex Media, Inc., v. Click-To-Call
Technologies, LP, No. 18-916 (2019), which is challenging
the Wi-Fi One holding. The Court should grant this
petition for a writ of certiorari and address the questions
presented in this case together with the Dex Media case
to expand its review of the scope of the appeal bar under
§ 314(d) to consider time-bar decisions under § 315(b) of
the PTAB that deny institution to fully address the due
process concerns of petitioners.

4
OPINIONS BELOW
The order of the United States Court of Appeals
for the Federal Circuit dated December 27, 2018, which
dismissed the appeal for lack of jurisdiction, is unpublished
and reprinted in the Appendix to this Petition (“App.”)
at App. la-4a. The PTAB’s decisions to deny institution
of inter partes review are reprinted at App. 5a-130a and
SA1-SA1301.
JURISDICTION
The judgment of the United States Court of Appeals
for the Federal Circuit was entered on December 27,2018.
App. la-4a. A petition for en banc rehearing was filed
on February 11, 2019, App. 133a-156a, and the United
States Court of Appeals for the Federal Circuit denied
the rehearing request on April 26, 2019, App. 131a-132a.
The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
35 U.S.C. § 314 provides, in relevant part:
(a) Threshold.—The Director may not authorize
an inter partes review to be instituted unless
the Director determines that the information
presented in the petition filed under section
311 and any response filed under section 313
1. The Supplement Appendix (“SA”) contains the non-public
versions of the PTAB’s decisions to deny institution of inter partes
review.

5

shows that there is a reasonable likelihood that
the petitioner would prevail with respect to at
least 1 of the claims challenged in the petition.

(d) No Appeal.—The determination by the
Director whether to institute an inter partes
review under this section shall be final and
nonappealable.
35 U.S.C. § 315(b) provides, in relevant part:
(b) Patent Owner’s Action.—An inter partes
review may not be instituted if the petition
requesting the proceeding is filed more than 1
year after the date on which the petitioner, real
party in interest, or privy of the petitioner is
served with a complaint alleging infringement
of the patent.
35 U.S.C. § 319 provides:
A party dissatisfied with the final written
decision of the Patent Trial and Appeal Board
under section 318(a) may appeal the decision
pursuant to sections 141 through 144. Any party
to the inter partes review shall have the right
to be a party to the appeal.
28 U.S.C. § 1295 provides, in relevant part:
(a) The United States Court of Appeals for
the Federal Circuit shall have exclusive
jurisdiction—

6

(4) of an appeal from a decision of—
(A) the Patent Trial and Appeal Board of the
United States Patent and Trademark Office
with respect to a patent application, derivation
proceeding, reexamination, post-grant review,
or inter partes review under title 35, at the
instance of a party who exercised that party’s
right to participate in the applicable proceeding
before or appeal to the Board, except that an
applicant or a party to a derivation proceeding
may also have remedy by civil action pursuant
to section 145 or 146 of title 35; an appeal under
this subparagraph of a decision of the Board
with respect to an application or derivation
proceeding shall waive the right of such
applicant or party to proceed under section 145
or 146 of title 35;
5 U.S.C. § 701 provides, in relevant part
(a) This chapter applies, according to the
provisions thereof, except to the extent that—
(1) statutes preclude judicial review; or
(2) agency action is committed to agency
discretion by law.
5 U.S.C. § 706 provides, in relevant part:
To the extent necessary to decision and
when presented, the reviewing court shall

7

decide all relevant questions of law, interpret
constitutional and statutory provisions, and
determine the meaning or applicability of the
terms of an agency action. The reviewing court
shall—

(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law.
STATEMENT OF THE CASE
In 2011, Congress enacted the Leahy-Smith America
Invents Act (“AIA”), Pub. L.. No. 112-29, 125 Stat. 284
(2011). The statute has two provisions relevant here.
First, 35 U.S.C. § 315(b) provides that “[a]n inter
partes review may not be instituted if the petition
requesting the proceeding is filed more than 1 year after
the date on which the petitioner ... is served with a
complaint alleging infringement of the patent.” Pursuant
to 28 U.S.C. 1295(a)(4)(A) and the “strong presumption
in favor of judicial review,” Cuozzo, 136 S. Ct. at 2140
(internal quotation marks omitted), a decision against
institution would be reviewable unless such review were
prohibited by statute.
Second, 35 U.S.C. § 314(d) provides that “[t]he
determination by the Director whether to institute an
inter partes review under this section shall be final

8
and nonappealable.” In Cuozzo, this Court addressed
this appeal bar, but did not decide “the precise effect of
§ 314(d) on appeals that implicate constitutional questions,
that depend on other less closely related statutes, or that
present other questions of interpretation that reach, in
terms of scope and impact, well beyond ‘this section.’”
Cuozzo, 136 S. Ct. at 2141. In Wi-Fi One, the en banc
Federal Circuit held that a PTAB decision under the
§ 315(b) time-bar was not “closely related” to the PTAB
decision whether to institute review under 35 U.S.C.
§ 314(a), and therefore the appeal bar set forth in § 314(d)
did not apply to a time-bar determination. Wi-Fi One, 878
F.3d at 1373. In the appeal below, however, the Federal
Circuit grafted an exception into the directive of the
statute and the case law: the Federal Circuit rescinded
the reviewability of time-bar decisions based on the
procedural happenstance of whether the PTAB (i) did
not find a time-bar, and thus instituted the inter partes
review (in which case nothing could be reviewed until the
PTAB’s issuance of a Final Written Decision), or (ii) did
find a time-bar, and thus did not institute the inter partes
review (in which case PTAB never issues a Final Written
Decision). The fundamental problem with the Federal
Circuit’s approach is that the procedural timing - and
the issuance of a Final Written Decision - would only be
relevant if the appeal bar of § 314(d) applied to the § 315(b)
time-bar, but Wi-Fi One (based on Cuozzo) established
that the appeal bar § 314(d) is categorically inapplicable
to a review of the § 315(b) time bar. Accordingly, 28 U.S.C.
§ 1295(a)(4)(A) provides appellate jurisdiction, and no
statute excludes it.

9
A. The America Invents Act
With the AIA, Congress intended to provide a
“quick and cost effective alternative[] to litigation” and
to “improve patent quality and restore confidence in the
presumption of validity that comes with issued patents
in court.” H.R. Rep. No. 112-98, pt. 1, at 45, 48 (2011).
The AIA replaced the former system of inter partes
reexamination with a new adjudicatory proceeding called
inter partes review (“IPR”). See Cuozzo, 136 S. Ct. at 2137.
An IPR is “a second look at an earlier administrative grant
of a patent.” Id. at 2144. Within the Patent and Trademark
Office (“PTO”), the AIA created the Patent Trial and
Appeal Board (“PTAB” or “Board”), which “conducts
the proceedings, reaches a conclusion, and sets forth its
reasons.” Id. at 2137.
The AIA established a two-step process for IPR
proceedings. First, “[ajny person other than the patent
owner can file a petition for inter partes review.” Oil
States Energy Servs., LLC v. Greene’s Energy Grp., LLC,
138 S. Ct. 1365, 1371 (2018); see 35 U.S.C. § 311(a).2 The
PTAB, acting on behalf of the Director of the PTO, see
37 C.F.R. § 42.4(a), determines whether to “institute” an
IPR. See 35 U.S.C. § 314(a). The PTAB may institute an
IPR if it concludes that “there is a reasonable likelihood
that the petitioner would prevail with respect to at least 1
2. The AIA requires the petition to identify “the grounds on
which the challenge to each claim is based, and the evidence that
supports the grounds for the challenge to each claim.” 35 U.S.C.
§ 312(a)(3). The patentee then has “the right to file a preliminary
response to the petition” containing “reasons why no inter partes
review should be instituted based upon the failure of the petition
to meet any requirement of this chapter.” 35 U.S.C. § 313.

10
of the claims challenged in the petition.” Id. “The decision
whether to institute inter partes review is committed to
the Director’s discretion.” Oil States, 138 S. Ct. at 1371.
The one-year time-bar of § 315(b), however, circumscribes
the Director’s discretion if there has been prior litigation
in court over the patent: “An inter partes review may not
be instituted if the petition requesting the proceeding
is filed more than 1 year after the date on which the
petitioner, real party in interest, or privy of the petitioner
is served with a complaint alleging infringement of the
patent.” 35 U.S.C. § 315(b).
Second, if the PTAB institutes an IPR, the Board
conducts a trial to determine if any of the challenged
patent claims should be cancelled. See Oil States, 138 S.
Ct. at 1371-72.3 The PTAB must “issue a final written
decision with respect to the patentability of any patent
claim challenged by the petitioner and any new claim
added” by amendment. 35 U.S.C. § 318(a). Any party
“who is dissatisfied with the final written decision of the
Patent Trial and Appeal Board... may appeal the Board’s
decision” to the Federal Circuit. 35 U.S.C. § 141(c); see
also 35 U.S.C. § 319. But, Congress limited the ability
of the patent owner to appeal the PTAB’s decision to
institute an IPR in the first place: “The determination by
the Director whether to institute an inter partes review
under this section shall be final and nonappealable.” 35
U.S.C. § 314(d).

3. The trial process includes “many of the usual trappings
of litigation,” as “[t]he parties conduct discovery and join issue in
briefing and at an oral hearing.” SAS Inst. Inc. v. Iancu, 138 S.
Ct. 1348,1354 (2018).

11
B. The Patent Infringement Cases
On September 21,2015, Respondent ChanBond, LLC
(“ChanBond”) sued thirteen defendants (the “Delaware
Defendants”)4 in separate actions for infringement of
three patents5 in the District of Delaware. Petitioner
ARRIS International Limited6 (“ARRIS”) is not now,
nor has it ever been, a Delaware Defendant, nor has it
been sued in any other action for infringement of any of
the three patents. The thirteen actions were consolidated
into a single action that is presently pending in the district
court.
C. The IPR Proceedings Before The PTAB
On February 2,2018, ARRIS filed two IPR petitions
challenging the ’565 Patent on grounds of obviousness,
two IPR petitions challenging the ’679 Patent on grounds
of obviousness, and a single IPR petition challenging the
4. The named defendants are Atlantic Broadband Group,
LLC, Bright House Networks, LLC, Cable One, Inc. LLC,
Cablevision Systems Corp., Cequel Communications, LLC, Charter
Communications, LLC, Comcast Corp., Cox Communications,
Inc., Mediacom Communications Corp., RCM Telecom Services,
LLC, Time Warner Cable, Inc., WaveDivision Holdings, LLC, and
WideOpen West Finance, LLC.
5. The three patents were U.S. Patent Nos. 7,941,822 (the
“’822 Patent”), 8,341,679 (the “’679 Patent”) and 8,984,565 (the
“’565 Patent”) (collectively, the “Asserted Patents”).
6. Through a corporate merger and reorganization during
the proceedings below, ARRIS International pic underwent a
name change to ARRIS International Limited, which is now the
petitioner in this case.

12
’822 Patent on grounds of obviousness. App. 6a, 31a-32a,
57a, 82a, 107a, SA2, SA28, SA54, SA80, and SA106.
On June 13, 2018, ChanBond filed its preliminary
responses in the IPRs arguing that ARRIS was timebarred under 35 U.S.C. § 315(b) because ARRIS was in
privity with the Delaware Defendants that were served
with a complaint for infringement of the Asserted Patents
more than one year before the filing date of ARRIS’s
petitions.7 App. 8a, 34a, 59a, 84a, 109a, SA4, SA30, SA56,
SA82, and SA108.
On July 20, 2018, the PTAB denied institution of all
five petitions. The PTAB held that ARRIS was timebarred under 35 U.S.C. § 315(b) because “[o]ne or more
of the defendants in the Delaware actions was in privity
with [ARRIS], and those defendants were served with a
complaint, alleging infringement of the [Asserted Patents]
more than one year prior to the filing of the instant
Petition.” App. 24a, 50a, 75a, 100a, 125a, SA20-SA21,
SA46-SA47, SA72-SA73, SA98-SA99, and SA124-SA125.

7. On May 25, 2018, ChanBond had filed a motion in each of
the five IPRs seeking discovery as to ARRIS’s involvement with
the Delaware Defendants, in support of ChanBond’s allegation
that ARRIS was a real party-in-interest or in privity with the
Delaware Defendants. The PTAB issued its decision denying
institution while ChanBond’s motion for additional discovery was
pending, and weeks before the institution decisions were due.
The PTAB did not address the parties’ ongoing discovery dispute
and dismissed the motion for additional discovery as moot. App.
25a-26a, 50a-51a, 76a-77a, 101a-102a, 125a-126a, SA21-SA22,
SA47-SA48, SA73-SA74, SA99-SA100, and SA125-SA126.

13
D. The Federal Circuit Appeals
On September 20,2018, ARRIS filed a notice of appeal
in each of the five IPRs, seeking review of the PTAB’s
decision that ARRIS was a privy of at least one of the
Delaware Defendants.
On October 12, 2018, ChanBond filed a motion
to dismiss each of the appeals for lack of appellate
jurisdiction.
On December 27,2018, the Federal Circuit dismissed
ARRIS’s appeal for lack of appellate jurisdiction under
35 U.S.C. § 314(d). The court, relying on its decision in
St. Jude Medical, Cardiology Division, Inc. v. Volcano
Corp., 749 F.3d 1373 (Fed. Cir. 2014), held that “our review
authority under 28 U.S.C. § 1295(a)(4)(A) does not extend
to appeals from decisions not to institute.” App. 3a (citing
St. Jude, 749 F.3d at 1375-76). With respect to the Wi-Fi
One decision, the Federal Circuit noted that “the agency’s
decision to deny a petition is a matter committed to the
Patent Office’s discretion” and stated that the Wi-Fi One
holding “reiterated” that “[i]f the Director decides not to
institute, for whatever reason, there is no review.” App. 3a.,
On February 11, 2019, ARRIS filed a petition for en
banc rehearing, arguing that (1) the en banc decision in
Wi-Fi One held that time-bar determinations under § 315
are reviewable; (2) the decision in Arthrex, Inc., v. Smith
& Nephew, Inc., 880 F.3d 1345 (Fed. Cir. 2018) held that
35 U.S.C. § 319 does not provide exclusive jurisdiction
for appeals from PTAB decisions; and (3) the PTAB’s
discretionary decision not to institute was reviewable
under Weyerhaeuser Co. v. U.S. Fish & Wildlife Service,
139 S. Ct. 361 (2018).

14
On April 26, 2019 the petition for en banc rehearing
was denied. App. 131a-132a.
REASONS FOR GRANTING THE PETITION
The exception to appellate jurisdiction applied by
the Federal Circuit in this case has sweeping effects on
the application of the law of privity and real-party-ininterest under the AIA. This case thus addresses whether
the Federal Circuit has jurisdiction to hear an appeal
of the PTAB’s determination that a party is a “privy”
under § 315(b) - and is therefore time-barred - when
that decision results in the non-institution of an IPR.
The Federal Circuit’s decision that § 314(d) deprives it
of jurisdiction to review the PTAB’s determination that
Petitioner ARRIS is a privy to the Delaware Defendants
under § 315(b) - and that ARRIS is therefore timebarred - is contrary to this Court’s decisions in Cuozzo and
Weyerhaeuser, and also contrary to the Federal Circuit’s
decisions in Wi-Fi One and Arthrex.
The Federal Circuit’s decision also deprives ARRIS
of due process, because the PTAB’s decision impacts
ARRIS’s substantive rights in view of estoppels that
attach to “privies” of IPR petitioners, and in view of the
preclusive effect of the PTAB’s privy finding that goes
beyond the estoppel provisions of the AIA pursuant to
this Court’s holding in B&B Hardware, Inc. v. Hargis
Industries, 135 S. Ct. 1293 (2015). In the words of the
Wi-Fi One court, a decision under § 315(b) “governs the
relation of IPRs to other proceedings or actions, including
actions taken in district court.” Wi-Fi One, 878 F.3d at
1374.

15
Following this Court’s decision in Cuozzo, the Federal
Circuit’s en banc decision in Wi-Fi One rightly relied
on “the ‘strong presumption’ favoring judicial review
of administrative actions, including the Director’s IPR
institution decisions” and found “no clear and convincing
indication in the specific statutory language in the AIA,
the specific legislative history of the AIA, or the statutory
scheme as a whole that demonstrates Congress’s intent to
bar judicial review of § 315(b) time-bar determinations.”
Id. at 1371-72 (quoting Cuozzo, 136 S. Ct. at 2140). The
court distinguished the time-bar determination under
§ 315(b) (which is not a discretionary decision and not
subject to an appeal bar) from the merits-based analysis
of § 314(a) (which is discretionary and is subject to an
appeal bar): “[t]he time-bar determination ... is not akin
to either the non-initiation or preliminary-only merits
determinations for which unreviewability is common in
the law.” Id. at 1373.8 But the Federal Circuit has now
carved out an exception that swallows the rule: if the
decision was adverse to the petitioner - and thus denied
institution based on finding that the petitioner is a “privy”
of a party who was earlier sued and thus subject to the
time-bar - then the Federal Circuit no longer applies this
Court’s guidance in Cuozzo or its own rule in Wi-Fi One.
Moreover, the logical end to this new Federal Circuit
exception is that only the patent owner can appeal an
institution decision based 315(b), since a petitioner would
never have an instituted proceeding from which to appeal.
This exception defies the rationale of those cases, and is
8. Moreover, the Federal Circuit held that unreviewability
is “limited to the Director’s determinations closely related to
the preliminary patentability determination or the exercise
of discretion not to institute,” and “[wjhether a petitioner has
complied with § 315(b) is not such a determination.” Id.

16
exactly backwards from the standpoint of due process: the
PTAB’s finding that a petitioner is a privy of another party
has a substantive effect on rights based on the resulting
estoppels that follow a petitioner after termination of the
IPR, and so this is precisely the type of decision that must
be subject to review.
This case is an ideal vehicle for addressing the
question regarding the Federal Circuit’s jurisdiction to
hear issues affecting the substantive rights of parties
unrelated to the Director’s exercise of discretion under
§314(a). The Court should therefore grant the petition.
I.

The Federal Circuit’s Decision that it Does Not
Have Jurisdiction to Review a PTAB Decision
Affecting the Substantive Rights of a Petitioner - a
Decision Unrelated to the Director’s Discretion to
Institute Review - Leaves the Reviewability of the
PTAB’s Decisions in a State of Confusion
A. The Federal Circuit Contravened Cuozzo, Wi-Fi
One and Arthrex

This case presents the opportunity for the Court to
clarify the proper scope and application of § 314(d), and to
eliminate the improper exception that the Federal Circuit
has imposed on the principles of reviewability articulated
by this Court in Cuozzo and the en banc Federal Circuit in
Wi-Fi Owe. This Court should confirm that the procedural
juncture at which the PTAB decides the applicability of
the § 315(b) time-bar is irrelevant to its reviewability,
particularly given the denial of due process that occurs by
(i) imposing a substantive estoppel by an administrative
agency’s determination that a party is a “privy” under the

17
AIA’s IPR scheme but (ii) denying any the opportunity
for appellate review of that determination.
1.

The en banc Court in Wi-Fi One,
Relying on Cuozzo, Held that TimeBar Determinations Under §315(b) are
Reviewable

The specific issue in Cuozzo was the ability to review
the PTAB’s decision to institute an IPR under § 314(a),
in light of Cuozzo’s assertion that the petition lacked the
“particularity” required by 35 U.S.C. § 312. Cuozzo, 136
S. Ct. at 2142. In Cuozzo, this Court expressly limited its
holding to the facts of that case, and left it for the Federal
Circuit to decide the proper application of § 314(d) to other
IPR appellate issues, such as the § 315(b) time-bar issue,
in light of the guidance provided by Cuozzo:
[W]e emphasize that our interpretation applies
where the grounds for attacking the decision
to institute inter partes review consist of
questions that are closely tied to the application
and interpretation of statutes related to
the Patent Office’s decision to initiate inter
partes review. See § 314(d) (barring appeals of
“determinations ... to initiate an inter partes
review under this section” (emphasis added)).
This means that we need not, and do not, decide
the precise effect of § 314(d) on appeals that
implicate constitutional questions, that depend
on other less closely related statutes, or that
present other questions of interpretation that
reach, in terms of scope and impact, well beyond
“this section.”

18
Id. at 2141 (emphasis in original). The Court also expresslyrecognized exceptions allowing review when “there is a
due process problem” or the PTAB “act[ed] outside of its
statutory limits,” noting that “[s]uch ‘shenanigans’ may
properly be reviewable” under 35 U.S.C. § 319 or the
Administrative Procedure Act. Id. at 2141-42 (citing 5
U.S.C. §§ 706(2)(A)-(D)).
Following Cuozzo, the en banc Federal Circuit
considered the scope of § 314(d) as it applied to a review
of a PTAB decision under § 315(b) after a final written
decision was issued in Wi-Fi One. The Federal Circuit
stated that “[t]he [Cuozzo] Court made clear that its
holding was limited; it expressly left open the potential
for review, under certain circumstances of decisions to
institute IPR.” Wi-Fi One, 878 F.3d at 1369-70. Thus, the
Wi-Fi One court considered whether the § 315(b) time-bar
issue was closely related to § 314 such that the appeals
bar of § 314(d) should apply.
In conducting its review, the en banc Federal Circuit
recognized that there is a “‘strong presumption’ favoring
judicial review of administrative actions, including the
Director’s IPR institution decisions,” and noted that
“[fjinal decisions of the PTO are reviewable according to
the standard provided by the Administrative Procedures
Act,” and that “28 U.S.C. 1295(a)(4)(A) provides exclusive
jurisdiction over an appeal from a decision of the Patent
Trial and Appeal Board ... with respect to inter partes
review under title 35.” Id. at 1371-72 n.6.
In view of this strong presumption of judicial review,
the Federal Circuit reviewed the statutory language and
legislative history of AIA. It held “[t]he parties have not

19
cited, nor are we aware of, any specific legislative history
that clearly and convincingly indicates congressional intent
to bar judicial review of § 315(b) time-bar determinations.”
Id. at 1372.
With respect to the language of the statute, the Wi­
Fi One court correctly noted that § 314(a) identifies a
threshold merits requirement “focused on the patentability
merits of particular claims,” and it grants the Director
discretion to not institute even when the threshold is met.
Id. The Federal Circuit then contrasted the language of
§ 314(a) with the language of § 315(b), holding that § 315(b)
is “unrelated to the Director’s preliminary patentability
assessment or the Directors’ discretion not to initiate
an IPR even if the threshold ‘reasonable likelihood’ is
present.” Id. at 1373. Absent such a bar, the ordinary
reviewability of administrative decisions from the PTAB
pursuant to 28 U.S.C. § 1295(a)(4)(A) controls; there is no
further limitation to consider. The Federal Circuit ruled
that the bar under § 314(d) does not apply to § 315(b)
time-bar determinations: “time-bar determinations under
§ 315(b) are reviewable by this court.” Id. at 1374.
The distinction between the merits-based,
discretionary decision under §314(a) and the non-merits
based, non-discretionary decision under § 315(b) comports
with the dictates of due process. A decision not to institute
a petition based on a discretionary decision applying the
“reasonable likelihood” threshold does not impose any
substantive estoppel in the district court or any other
hardship on a party (and thus the absence of appellate
review does not necessarily implicate due process). On the
other hand, a decision finding that a petitioner is a privy
of another (as the sole basis for finding that a petition is

20

time-barred) does impose a substantive estoppel that is
not based on the Director’s discretionary authority.
Here, however, the Federal Circuit has imposed a
distinction based on the procedural juncture at which
the time-bar decision was issued, even though that
procedural distinction has nothing to do with the statutory
or constitutional basis for the reviewability of time-bar
decisions under § 315(b). Thus, the Federal Circuit panel
here, consistent with the position of the Director as
Intervenor below, seized on the procedural happenstance
that Wi-Fi One involved a decision to institute that was
challenged after issuance of a final written decision. But,
the question of whether a final written decision has issued
is only relevant if § 314(d) applies to time-bar decisions
under § 315(b). And the entire point of Wi-Fi One - based
on the guidance from this Court in Cuozzo - is that
§ 314(d) is not applicable to time-bar decisions under
§ 315(b). Again, the rationale utilized by this Court for why
§ 314(d) is not an absolute bar to appeal applies equally
to a denial of institution because § 315(b) “is not closely
related to § 314(d)” regardless of whether the § 315(b)
decision is made at the time of institution or in a final
written decision.9 Accordingly, the question of whether a
final written decision has issued has nothing to do with
the existence of jurisdiction to review time-bar decisions
under § 315(b). That jurisdiction exists under 28 U.S.C.
§ 1295(a)(4)(A), and is not excluded by any other statute.
It should be of no import whether the PTAB decision
9. The Wi-Fi One court held that the §315(b) time-bar is
fundamentally different than a procedural requirement and is
unrelated to the question of patentability being addressed by the
institution decision. Wi-Fi One, 878 F.3d at 1374.

21
affects the substantive rights of ARRIS at the institution
stage, or whether it does so at the final written decision
stage. Both situations require that the PTAB’s decision
be reviewable so that the ARRIS is not deprived of its
right to due process.
Here, the panel decision denying review affects
the substantive rights of ARRIS as it relates to the
previous IPR filed by Cisco Systems, Inc. (and naming
the Delaware Defendants as real parties in interest), as
well as the actions taken by the Delaware Defendants
in the district court litigation. The Federal Circuit has
already established this point, as a decision under § 315(b)
“governs the relation of IPRs to other proceedings or
actions, including actions taken in district court.” Wi-Fi
One, 878 F.3d at 1374. For example, the estoppel provision
of 35 U.S.C. § 315(e) that arises from a final written
decision in an IPR impacts a real-party-in-interest’s or
privy’s ability to challenge the validity of the asserted
patents in a district court action. Moreover, decisions
from the PTAB may be given preclusive effect that go
beyond the estoppel provisions of the AIA pursuant to this
Court’s holding in B&B Hardware. See also MaxLinear,
Inc. v. CF CRESPE LLC, 880 F.3d 1373 (Fed. Cir. 2018)
(holding that the B&B Hardware decision regarding
issue preclusion arising from administrative decisions
applies to proceeding before the PTAB). Thus, a finding
by the PTAB that a petitioner is a privy of defendants in
a district court litigation may be given preclusive effect
in the litigation - such that a finding of infringement can
be binding on a real-party-in-interest or privy.

22

2.

Arthrex Held that 35 U.S.C. § 319 Does Not
Provide Exclusive Jurisdiction for Appeals
from PTAB Decisions

In the appeal below, ChanBond and the Intervenor
argued that § 319 - which states that “[a] party dissatisfied
with the final written decision of the Patent Trial and
Appeal Board under section 318(a) may appeal the decision
pursuant to sections 141 through 144” - provides the sole
basis for review of a PTAB decision. The Federal Circuit
should have rejected that argument in view of Arthrex
and held that the language of 28 U.S.C. § 1295 on its
face provides an appeal right for a PTAB decision made
pursuant to § 315(b).
In Arthrex, the Federal Circuit considered whether
an adverse final judgment by the PTAB that terminated
an IPR before an institution decision issued is appealable.
Arthrex, 880 F.3d at 1345. The Federal Circuit started
its analysis by citing the general rule “that judicial
review is presumed to be available with respect to final
agency action,” and noted the strong presumption that
Congress intends judicial review of administrative actions.
Id. at 1348 (citing Cuozzo and the APA). The Federal
Circuit then found that the adverse judgment was not
an institution decision under § 314, and thus that the
appellate bar of § 314(d) did not apply. Id. at 1348-49. The
Federal Circuit held that the adverse judgment was a final
determination because the judgment terminated the IPR
proceedings. Id. at 1348. The Federal Circuit rejected
the argument that § 319 created the exclusive means for
appeal and held “[o]n its face, § 319 does not cabin the
appeal rights by § 1295.” Id. Based on these findings, the
Federal Circuit held:

23

Here, the language of 28 U.S.C. § 1295 appears
to provide for appeal. Section 1295(a)(4)(A)
provides the Federal Circuit with jurisdiction
over “an appeal from a decision of the Patent
Trial and Appeal Board of the United States
Patent and Trademark Office with respect
to . . . inter partes review under title 35. The
adverse judgment in this case is a decision of the
Board, and the decision is “with respect to” an
inter partes review proceeding. The judgment is
also final, as the judgment terminated the IPR
proceeding. See In re Arunachalam, 824 F.3d
987, 988 (Fed. Cir. 2016) (holding that §1295(a)
(4)(A) incorporates a finality requirement);
Copelands’ Enters., Inc. v. CNV, Inc., 887 F.2d
1065,1067-68 (Fed. Cir. 1989)(en banc)(same).
Id.
The time-bar decision in this case is a decision of
the PTAB, and the decision is “with respect to” an inter
partes review proceeding. The judgment is also final,
as the judgment terminated the IPR proceeding. It is
therefore subject to 28 U.S.C. § 1295, and there is no
statute excluding review of such a decision.
3.

The Federal Circuit’s Continued Reliance
On St. Jude To Artificially Restrict Its
Jurisdiction to Review Certain PTAB
Institution Decisions Should Be Overruled
in view of Cuozzo, Wi-Fi One and Arthrex

During the appeal below, ChanBond argued, and the
Federal Circuit agreed, that the Federal Circuit’s prior

24
decision in St. Jude foreclosed ARRIS’s appeal. App. 2a3a. St. Jude held that (1) a review of the PTAB’s decision
under the time-bar of § 315(b) is barred by § 314(d), and
(2) 28 U.S.C. § 1295(a)(4)(A) provides the Federal Circuit
with jurisdiction only over final written decisions from the
PTAB. St. Jude, 749 F.3d at 1376. However, both holdings
from St. Jude are no longer viable in view of subsequent
decisions from this Court in Cuozzo and Weyerhaeuser,
and from the Federal Circuit in Wi-Fi One and Arthrex.
In light of Wi-Fi One, it is clear that the St. Jude
court did not properly frame the issue of whether the
appeal bar of § 314(d) applied to the time-bar of § 315(b).
The St. Jude decision granted a motion to dismiss at the
onset of an appeal of a denial of institution based on a
§ 315(b) time-bar decision. The St. Jude decision issued
before Cuozzo and Wi-Fi One, and was premised upon
the court’s finding that the § 314(d) appeal bar “may well
preclude all review by any route.” St. Jude, 749 F.3d at
1376. Thus, the St. Jude court did not have the guidance
from the Cuozzo and Wi-Fi One decisions that now limit
the applicability of § 314(d).
Under the Cuozzo framework, the St. Jude court’s
analysis should have aligned with the analysis by the Wi­
Fi One court to determine whether the § 315(b) time-bar
was “closely related” to the § 314(d) appeal bar. Moreover,
the Wi-Fi One decision highlights the point that St. Jude
did not consider the applicable authorities from this Court
in connection with its decision to preclude all review of
the PTAB’s § 315(b) determination. Specifically, the St.
Jude panel did not consider the strong presumption of
reviewability of agency action under the APA, or related
cases from this Court cited by the en banc Federal Circuit

25

in Wi-Fi One. And, unlike the Wi-Fi One court, the St.
Jude panel also failed to recognize that a decision under
§ 315(b) affects the substantive rights of the parties.
The St. Jude panel also held that pursuant to § 319,
“[t]he final written decision is the only decision that the
statute authorizes a dissatisfied party to appeal,” 749
F.3d at 1374, and that 28 U.S.C. § 1295(a)(4)(A) is “most
naturally read to refer precisely to the Board’s decision
under section 318(a) on the merits of the inter partes
review, after it ‘conducts’ the proceeding that the Director
has ‘instituted.’” Id. at 1376. The St. Jude panel thus did not
have the guidance of Arthrex that held that final written
decisions under § 318(a) are not the only decisions that may
be appealed, and that 28 U.S.C. § 1295(a)(4)(A) provides
jurisdiction to a final determination that terminates the
IPR proceedings. Arthrex, 880 F.3d at 1349.
For all of the foregoing reasons, the Court should
overrule the decision of the Federal Circuit below that
was based on St. Jude, which is no longer viable in view
of Cuozzo, Wi-Fi One and Arthrex.
B. Even if the PTAB’s Decision to Deny Institution
is Committed to Agency Discretion, the
Decision is Available for Review Under
Weyerhaeuser
While the Cuozzo Court stated that “the agency’s
decision to deny a petition is a matter committed to the
Patent Office’s discretion,” Cuozzo, 136 S. Ct. at 2140, this
does not foreclose review of the agency’s determination
of whether the § 315(b) time-bar applies, as the Wi­
Fi One court held that the time-bar is “unrelated” to

26

the Director’s discretion. Wi-Fi One, 878 F.3d at 1377.
Nevertheless, as made clear in the recent Weyerhaeuser
decision, the fact that a matter is committed to agency
discretion does not make it unreviewable. Weyerhaeuser,
139 S. Ct. at 361.
Weyerhaeuser considered a property owner’s ability
to challenge the Secretary of the Interior’s designation
of the property owner’s land as a critical habitat under
16 U.S.C. § 1533(b)(2) of the Endangered Species Act.
Weyerhaeuser, 139 S. Ct. at 368. The Endangered Species
Act provides discretionary authority to the Secretary to
designate a “critical habitat” but also requires that the
Secretary consider the economic and any other relevant
impact in making its discretionary determination of
critical habitat. Id. at 368-69.
This Court noted that the APA creates a “basic
presumption of judicial review [for] one ‘suffering legal
wrong because of agency action.’” Id. at 370 (citing Abbott
Lab. v. Gardner, 387 U.S. 136,140 (1967) (quoting 5 U.S.C.
§ 702)). The Court further noted that “[t]he presumption
may be rebutted only if the relevant statute precludes
review, 5 U.S.C. § 701(a)(1), or if the action is ‘committed
to agency discretion by law,’ § 701(a)(2).” Id.
Weyerhaeuser recognized the tension between the
APA’s “prohibition of judicial review for actions committed
to agency discretion” under 5 U.S.C. § 701(a)(2), and “the
command in § 706(2)(A) that courts set aside any agency
action that is arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with the law.” Id. (internal
quotation marks omitted).

27

The Court found that the property owner was not
foreclosed from seeking review of the Secretary’s decision,
holding even though the use of the word “may” in the
statute “certainly confers discretion on the Secretary,”
this discretion does not relieve the Secretary from the
statutory requirement to consider the economic impact.
Id. at 371.
In so holding, the Court reiterated its position that
it reads the exception to judicial review in § 701(a)(2)
narrowly, restricting it to “those rare circumstances
where the relevant statute is drawn so that a court would
have no meaningful standard against which to judge the
agency’s exercise of discretion.” Id. at 370 (citing Lincoln
v. Vigil, 508 U.S. 182,191 (1993)). This ease ls not one of
those rare circumstances. Courts are well-equipped to
address the § 315(b) issues of privity, real party in interest,
and time limits - even more so than the PTAB.
Here, like the statute in Weyerhaeuser, the Patent
Statute provides relevant factors under § 315(b) to guide
the PTAB in the exercise of its discretion under § 314(a).
Thus, this case in not one of those rare instances in which
an agency’s exercise of discretion is not reviewable.
Rather, contrary to the position adopted by the Federal
Circuit below, the APA does provide a cause of action
under § 706(2)(A) to challenge the Director’s discretionary
decision under § 314(a) with respect to the relevant
factors set forth in § 315(b), and the Federal Circuit has
jurisdiction to hear that cause of action under 28 U.S.C.
§ 1295(a)(4)(A).

28II. This Case is an Ideal Vehicle to Resolve the
Jurisdiction of the Federal Circuit to Review PTAB
Decisions Denying Institution Based on the Timebar of 35 U.S.C. § 315(b)
This case presents an ideal opportunity to address
the reviewability of PTAB decisions that affect the
substantive rights of a party unrelated to the Director’s
decision whether to institute review under § 314(a). This
issue was squarely presented below. This case presents
the opportunity for the Court to clarify the proper
scope of § 314(d) post-Cuozzo, post-Wi-Fi One and postArthrex, and specifically to decide the applicability of
§ 314(d) to the § 315(b) time-bar issue at the institution
stage. Clarification of this issue is particularly needed
given that the imposition of a substantive estoppel by
an administrative agency without the opportunity for
appellate review deprives a party of its due process rights.
The Court already has recognized the importance of the
scope of the appeal bar under § 314(d) as it applies to the
time-bar under § 315(b) in its recent grant of a petition
for a writ of certiorari in Dex Media, Inc., v. Click-ToCall Technologies, LP, No. 18-916 (2019). Because of the
importance of the questions presented, and because this
petition is an ideal vehicle for addressing it, the Court
should grant this petition for a writ of certiorari and
address the questions presented in this case together with
the Dex Media case to expand review of the scope of the
appeal bar under § 314(d) to consider time-bar decisions
under § 315(b) when the PTAB denies institution.

29
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Donald J. English
Counsel of Record
Patrick D. McPherson
Matthew C. Gaudet
Diana M. Sangalli
Duane Morris LLP
505 9th Street, NW, Suite 1000
Washington, DC 20004
(202) 776-5228
djenglish@duanemorris.com
Counsel for Petitioner

